Audit Report




OIG-09-033
SAFETY AND SOUNDNESS: Material Loss Review of First
National Bank of Nevada and First Heritage Bank, National
Association
February 27, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Results in Brief............................................................................................ 2

    Causes of FNB Nevada and First Heritage Bank Failures ................................... 4
      Inadequate Controls Over Residential Mortgage and Commercial
      Real Estate Lending................................................................................. 4
      First Heritage Bank’s Selling (Lending) of Federal Funds to Affiliates ............. 11

    OCC’s Supervision of FNB Nevada and First Heritage Bank...............................                      13
      Forceful Action Not Taken in a Timely Manner to Address the
      Banks’ Problems. ....................................................................................     15
      OCC Used Prompt Corrective Action Appropriately. ....................................                     23
      OCC Transferred Supervision of the Banks to its Special Supervision
      Division to Facilitate Closings ...................................................................       24

    Recommendations ....................................................................................... 25

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              28
    Appendix     2:      Background..........................................................................   31
    Appendix     3:      Glossary of Terms ................................................................     35
    Appendix     4:      Chronology of Significant Events. ...........................................          41
    Appendix     5:      OCC Examination and Enforcement Actions Concerning
                         First National Bank of Nevada and First Heritage Bank...............                   44
    Appendix 6:          Management Comments........................................................            55
    Appendix 7:          Major Contributors to This Report ...........................................          57
    Appendix 8:          Report Distribution................................................................    58

Abbreviations

    CRE                  Commercial Real Estate
    FDIC                 Federal Deposit Insurance Corporation
    MRA                  Matter Requiring Attention
    OCC                  Office of the Comptroller of the Currency
    OIG                  Department of the Treasury Office of Inspector General
    PCA                  Prompt Corrective Action
    ROE                  Report of Examination


                         Material Loss Review of First National Bank of Nevada and First Heritage        Page i
                         Bank, National Association (OIG-09-033)
          This page intentionally left blank.




Material Loss Review of First National Bank of Nevada and First Heritage   Page ii
Bank, National Association (OIG-09-033)
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                  February 27, 2009

                  Mr. John C. Dugan
                  Comptroller of the Currency

                  This report presents the results of our review of the failures of First
                  National Bank of Nevada (FNB Nevada), of Reno, Nevada, and First
                  Heritage Bank, National Association (First Heritage Bank), of
                  Newport Beach, California, and supervision of the institutions by
                  the Office of the Comptroller of the Currency (OCC). Both banks
                  were owned by the First National Bank Holding Company of
                  Scottsdale, Arizona. Accordingly, we performed a single review of
                  the failures. Also included in this review is information about a third
                  OCC-supervised bank, First National Bank of Arizona (FNB Arizona),
                  that was also owned by First National Bank Holding Company. FNB
                  Arizona merged into FNB Nevada on June 30, 2008, 1 month
                  before the banks failed.

                  Our review was mandated under section 38(k) of the Federal
                  Deposit Insurance Act, as amended. OCC closed FNB Nevada and
                  First Heritage Bank and appointed the Federal Deposit Insurance
                  Corporation (FDIC) as receiver on July 25, 2008. As of
                  December 31, 2008, FDIC’s Deposit Insurance Fund had recorded
                  an estimated loss of $706 million for FNB Nevada and $33 million
                  for First Heritage Bank. FNB Arizona was no longer a separate
                  institution at the time of the failures and did not incur a distinct,
                  separate loss to the Deposit Insurance Fund.

                  Section 38(k) requires that we determine why FNB Nevada’s and
                  First Heritage Bank’s problems resulted in a material loss to the
                  Deposit Insurance Fund; review OCC’s supervision of both banks,
                  including implementation of the Prompt Corrective Action (PCA)
                  provisions of section 38; and make recommendations for
                  preventing any such loss in the future. We reviewed the

                  Material Loss Review of First National Bank of Nevada and First Heritage   Page 1
                  Bank, National Association (OIG-09-033)
               supervisory files and interviewed key officials involved in the
               regulatory matters. Because FNB Arizona operated independently
               from FNB Nevada and First Heritage Bank until 1 month before the
               banks failed, we reviewed OCC’s supervision of FNB Arizona as a
               separate institution. We conducted our fieldwork from August
               through December 2008 at OCC’s headquarters in Washington,
               D.C., its Western District office in Denver, Colorado, and its field
               office in Phoenix, Arizona. We also met with officials from FDIC’s
               Division of Resolutions and Receiverships in Dallas, Texas.

               Appendix 1 contains a more detailed description of our objectives,
               scope, and methodology. Appendix 2 contains background
               information on FNB Nevada and First Heritage Bank, as well as
               OCC’s bank supervision processes. We also provide a glossary of
               terms as appendix 3 (various terms when first used throughout the
               report are underlined and hyperlinked to the glossary). A
               chronology of significant events related to FNB Nevada and First
               Heritage Bank and OCC’s supervision of the banks is provided in
               appendix 4.


Results in Brief
               The primary cause of the failure of FNB Nevada was the significant
               losses within its commercial real estate loan portfolio as well as the
               losses from the residential mortgage division operations of the
               previously independent FNB Arizona. These losses resulted from
               inadequate management controls over credit underwriting and
               administrative practices, and inadequate risk management. The
               control deficiencies were exacerbated by unfavorable economic
               conditions. The primary cause of the failure of First Heritage Bank
               was FNB Nevada’s inability to repay, at the time OCC closed the
               banks, a $74.4 million loan from First Heritage Bank. The resulting
               loss depleted all of First Heritage Bank’s capital.

               OCC conducted timely and regular examinations of FNB Nevada,
               the former FNB Arizona prior to its merger with FNB Nevada, and
               First Heritage Bank and provided oversight through its off-site
               monitoring. The scope of the examinations appeared
               comprehensive as indicated by the ROEs, although workpaper
               evidence supporting the examination procedures performed was

               Material Loss Review of First National Bank of Nevada and First Heritage   Page 2
               Bank, National Association (OIG-09-033)
generally limited. OCC also used its authority under the PCA
provisions of the Federal Deposit Insurance Act. However, as
discussed below, we believe that OCC did not issue formal
enforcement action for any of the banks in a timely manner, and
was not aggressive enough in its supervision of the banks in light
of their weak management practices. OCC identified problems at
FNB Nevada and the former FNB Arizona as early as 2002. OCC
identified additional problems at FNB Nevada in 2005, 2006, and
2007. (First Heritage Bank was not established until 2005.) That
said, OCC took no forceful action to remediate unsafe and unsound
practices by the banks found through its examinations until the
second quarter of 2008. In December 2007, OCC concluded that a
formal enforcement action was needed against both FNB Arizona
and FNB Nevada but held off issuing the enforcement action to
allow time for an investor to determine whether to make an equity
injection. OCC’s enforcement policy allows for such discretion and
we conclude it was properly used in this instance.

In an internal assessment, OCC acknowledged it did not effectively
supervise FNB Arizona in that while risks were identified, follow-up
to ensure that bank management took corrective action was not as
aggressive as it should have been.

In this report, we recommend that OCC re-emphasize to examiners
the need to ensure banks take swift corrective actions in response
to examination findings and reiterate to examiners its policy that
supervision workpapers are to be clear, concise, and readily
understood by other examiners and reviewers.

In a written response, OCC concurred that FNB Nevada failed due
to significant losses within its commercial real estate portfolio as
well as the losses from the residential mortgage division operations
of the former First National Bank of Arizona, and that the cause of
First Heritage’s failure was FNB Nevada’s inability to repay Federal
Funds purchased from First Heritage Bank. OCC also agreed that,
based on their experience with these two banks, it was appropriate
to take additional measures to reinforce certain expectations and
requirements to OCC examining staff. The actions taken and
planned by OCC meet the intent of our recommendations. The full
text of OCC’s response is provided as appendix 6.


Material Loss Review of First National Bank of Nevada and First Heritage   Page 3
Bank, National Association (OIG-09-033)
Causes of FNB Nevada and First Heritage Bank Failures
                      Inadequate Controls Over Residential Mortgage and Commercial
                      Real Estate Lending

                      FNB Nevada, FNB Arizona (before its merger with FNB Nevada),
                      and First Heritage Bank were controlled by First National Bank
                      Holding Company. Management of all three banks, dominated by
                      the owner of the holding company, failed to ensure that the
                      residential mortgage1 and commercial real estate divisions at each
                      bank had adequate controls over credit underwriting and
                      administrative practices, and risk management. Management also
                      did not address repeated OCC examiner criticisms concerning
                      accounting, underwriting, and loan concentration.

                      FNB Arizona’s Unsound Credit Underwriting and Administration

                      Between 2002 and early 2005, the real estate mortgage market
                      had grown nationally due to relatively low interest rates and
                      demand for Alt-A loans and residential mortgage-backed securities
                      issued by investment firms. After mid-2005, with rising interest
                      rates and increased competition, the mortgage business became
                      less profitable and the secondary market for Alt-A mortgages
                      slowed, as part of a national trend, and then ceased altogether in
                      2007.

                      To deal with market deterioration, FNB Arizona’s residential
                      mortgage division in late 2006 began selling mortgages at reduced
                      prices to attract investors. Management also amended investor
                      contract agreements to make the loans easier to sell and to
                      increase bank profit margins. The amended contracts provided
                      investors with easier recourse terms when the loans did not meet
                      the representations and warranties made to the investors. The new
                      recourse provisions increased the bank’s risk exposure by forcing
                      the bank to repurchase loans from investors for various reasons,
                      such as overstated borrower income and other fraud. Additionally,

1
  The residential mortgage division was operated as part of FNB Arizona. Mortgages were originated
from retail channels, correspondent channels, and wholesale channels, with the wholesale channels
being the leading producer of mortgages for the division.

                      Material Loss Review of First National Bank of Nevada and First Heritage   Page 4
                      Bank, National Association (OIG-09-033)
management amended agreements with mortgage brokers it bought
loans from to improve the bank’s margins when it later sold the
mortgages to investors. The amended mortgage broker agreements
increased the bank’s risk by waiving the bank’s ability to force
mortgage brokers to repurchase loans returned by investors. The
effect was that FNB Arizona assumed all the risk with these
purchased mortgages.

At the same time it was taking on these additional risks, FNB
Arizona failed to improve its underwriting standards or drop riskier
mortgage products. As a result, it sustained considerable losses in
its residential mortgage division because of repurchase demands by
mortgage investors because the losses could no longer be passed
back to mortgage brokers.

From 2002 through 2007, OCC examiners repeatedly expressed
the need for stronger controls over FNB Arizona’s residential
mortgage division’s origination of the high-risk non-traditional and
Alt-A loans. Bank management, however, did not adequately
address these concerns. As a result, the bank found itself
repurchasing tens of millions of dollars in loans. As illustrated in
table 1, FNB Arizona’s residential mortgage division repurchased
approximately $372.7 million in loans from 2003 through 2007.

            Table 1: Mortgage Loans Sold and Repurchased
                     by FNB Arizona’s Residential Mortgage
                     Division
                                Amount sold         Amount
                                 to investors   Repurchased
             Year sold              (millions)     (millions)
             2003                     $4,351             $61
             2004                     $5,900           $104
             2005                     $6,447             $39
             2006                     $6,922           $104
             2007                     $3,514             $64
             Totals                  $27,134           $373
            Source: OIG analysis of bank documentation.
            Note: FNB Arizona closed the mortgage division in
                  August 2007.


As shown in the table, in 2007 the residential mortgage division
repurchased about $64 million of non-performing mortgage loans.
Additionally, in that year, the division recorded $29.6 million in loss

Material Loss Review of First National Bank of Nevada and First Heritage   Page 5
Bank, National Association (OIG-09-033)
provisions linked to those repurchases because the loans did not
meet the representations and warranties made to the investors.
Skeptical of the underwriting standards, investors also shied away
from purchasing loans in the quantities they had purchased
previously. An OCC examiner stated that the banks were caught
holding a large amount of poor quality mortgages and the
mortgages had to be sold at deep discounts. Those mortgages
which could not be sold had to be written down. The bank was not
able to sell approximately $683 million worth of mortgages that it
had originated. Although FNB Arizona closed the residential
mortgage division in August 2007, the losses continued. In the 10
months following the division’s closure—September 2007 to June
2008—residential mortgage losses totaled approximately $205.7
million, which was primarily attributable to loan repurchases, the
writing down of the loan values on the bank’s books, and the
reselling of loans to the secondary market at a discount.

Because FNB Arizona and, through loan participation, FNB Nevada,
could not sell these nontraditional loans to generate cash, the
liquidity of both banks were strained. As a result, both banks relied
on First Heritage Bank for liquidity to support their funding needs.

High Concentration of CRE Loans

FNB Arizona, FNB Nevada, and First Heritage Bank originated and
retained commercial real estate (CRE) loans for the acquisition and
development of land, and for residential construction. From 2003
to 2008, the three banks collectively increased their CRE loan
portfolios from $423 million to $1.5 billion. Chart 1 shows the
banks’ combined growth in CRE loans from 2003 through June
2008.




Material Loss Review of First National Bank of Nevada and First Heritage   Page 6
Bank, National Association (OIG-09-033)
Chart 1: Banks’ Combined CRE Loan Growth 2003 Through June 2008 (millions)

                                                                         $1,555
$1,600              First Heritage Bank
                                                                          $22           $1,457
                    FNB Nevada
                                                          $1,375                        $24
                    FNB Arizona
$1,400                                      $1,302         $11           $330
                                             $1

                                                           $327
$1,200
                                            $380
                                  $991

$1,000


                                $309
  $800
                                                                                       $1,433

                                                                        $1,204
  $600
                                                          $1,038
             $423
                                            $920

  $400      $128                $682



  $200
            $295



    $0
           2003               2004        2005           2006           2007          2008


 Source: OIG analysis of the banks’ Reports of Condition and Income (call reports).
 Notes: (1) FNB Arizona’s CRE loans were combined with FNB Nevada’s in 2008 because of the banks’
         merger.
         (2) Totals do not add due to rounding.

                        As a result of the commercial real estate market deterioration, a
                        large volume of CRE loans originated and retained by the banks
                        declined in quality and the banks experienced significant losses in
                        their CRE portfolios. From 2003 to 2008, the banks had losses
                        totaling approximately $53 million. As of June 30, 2008, the banks
                        had recorded about $374 million of CRE loans as being over 90
                        days past due, representing about 25 percent of their collective
                        CRE loan portfolio as of that date. The losses incurred from the
                        high concentration of CRE loans were a significant factor in the
                        banks’ failures.

                        The reacquisition and retention of poor-quality residential mortgage
                        loans and the CRE loans increased FNB Arizona’s and FNB
                        Nevada's levels of adversely classified assets. The increasing levels
                        of adversely classified assets triggered an increase in the

                        Material Loss Review of First National Bank of Nevada and First Heritage    Page 7
                        Bank, National Association (OIG-09-033)
Allowance for Loan and Lease Losses (ALLL), which diminished
capital and earnings.

Table 2 illustrates the three banks’ CRE loans as a percentage of
total capital.

    Table 2: CRE Loans as a Percentage of Total Capital
                                                    First
                 FNB        FNB        Peer     Heritage              Peer
    Year     Arizona    Nevada        banks        Bank              banks
    2004       613%       446%       333%            n/a               n/a
    2005       577%       510%       359%          15%                74%
    2006       555%       445%       389%        109%                232%
    2007       659%       579%       405%        175%                341%
    2008          n/a     985%       285%        344%                379%
    Source: OIG analysis of bank documentation.
    Notes: (1) First Heritage Bank opened in 2005.
            (2) FNB Arizona merged with FNB Nevada on June 30, 2008.


As early as 2004, OCC examiners voiced concern to the banks
about the growing loan concentration problem and repeatedly
encouraged establishing concentration limits. Bank management,
however, ignored OCC’s recommendations. OCC expressed the
following additional concentration concerns through 2007:

•   In OCC’s 2004 Reports of Examination (ROE) for FNB Arizona
    and FNB Nevada, examiners wrote that credit risk was high and
    increasing due to large concentrations of credit in real estate
    construction and land development, and that these concerns
    were exacerbated by the lack of internal concentration limits.

•   In the 2005 ROEs for FNB Arizona and FNB Nevada, examiners
    wrote that the real estate concentrations of credit were of
    heightened supervisory concern primarily related to the need to
    improve identification and monitoring of risk associated with
    these concentrations on an individual loan and a portfolio basis.

•   In the 2006 ROEs for FNB Arizona and FNB Nevada, examiners
    again criticized the banks’ CRE and large lending relationship
    concentrations. The examiners recognized that the banks
    operated in strong real estate markets but cautioned that there
    was an inherent risk associated with concentrations, especially


Material Loss Review of First National Bank of Nevada and First Heritage     Page 8
Bank, National Association (OIG-09-033)
    in the context of the softening real estate markets. In the ROEs,
    the examiners recommended that management establish limits
    for the amount of risk that the banks were willing to accept for
    each large lending relationship.

•   In the 2007 ROEs, examiners once again criticized the banks’
    high concentrations, this time as a Matter Requiring Attention
    (MRA). The MRA directed the banks’ board of directors to
    establish reasonable concentration limits and strategies to
    conform to the limits.

Accounting Practices Not Compliant With GAAP

Management failed to implement adequate controls over the banks’
accounting practices. Beginning with the 2004 examination of FNB
Arizona and FNB Nevada, OCC examiners repeatedly raised
concerns about the adequacy of controls over the accounting
processes to ensure compliance with generally accepted
accounting principles (GAAP).

•   The repurchase reserve methodology never fully conformed with
    GAAP. For example, FNB Arizona’s reserve analysis did not
    consider external factors such as the economic environment,
    industry data, underwriting changes, or other factors for the
    types of loans being sold.

•   Processes to consistently recognize impairments and charge-
    offs in a timely manner and in accordance with GAAP were
    lacking. The examiners noted that the ALLL procedures needed
    to include a discussion of the methodology employed when
    determining and measuring loan impairment.

•   Comprehensive accounting policies needed to be developed,
    implemented, and followed.

In the 2005 ROEs for FNB Arizona and FNB Nevada, examiners
found that the banks still had not established comprehensive
accounting policies and procedures to ensure compliance with
complex accounting rules, such as the standards for recognizing
mortgage sales. OCC also noticed that each bank’s repurchase
reserve was comparatively lower than several other large banks

Material Loss Review of First National Bank of Nevada and First Heritage   Page 9
Bank, National Association (OIG-09-033)
                        and found that the banks did not adjust their repurchase reserves
                        to reflect external factors in accordance with GAAP. In addition,
                        OCC found that there was a lack of support for general ledger
                        adjustments made to the amount of the repurchase reserves. The
                        ROEs for the 2006 and 2007 examinations communicated that the
                        ALLL was adequate but the methodology still required
                        enhancements to meet federal banking interagency policy.

                        Despite repeated examiner criticisms from 2004 to 2007,
                        management never implemented proper controls over the banks’
                        accounting processes and the residential mortgage division's
                        repurchase reserve methodology. The examiners warned in the
                        2007 ROEs that these accounting inadequacies would materially
                        misstate the banks’ financial statements and understate the
                        potential losses from repurchased mortgages.

                        Ineffectiveness of the Banks’ Board and Management

                        FNB Arizona, FNB Nevada, First Heritage Bank, and the First
                        National Bank Holding Company shared common boards and some
                        centralized functions. OCC examiners were concerned that the
                        boards lacked independence because they were comprised of the
                        same individuals, bank employees, and friends of the banks’
                        owner.

                        Management of the three banks was dominated by the board’s
                        chairman, who was also the sole owner of the holding company. In
                        FDIC documentation we reviewed, bank officials described the
                        individual as being very dominant and influential in making
                        decisions and setting direction. According to OCC, the owner
                        created a culture within the banks that they considered to be high-
                        risk and one that emphasized growth and profits over appropriate
                        risk management.2


2
  In September 2005, the First National Bank Holding Company voluntarily dissolved its New Mexico
thrift, chartered by the Office of Thrift Supervision (OTS) just 11 months prior, after OTS had
threatened to revoke the thrift’s charter for deviating from its originally approved business plan. At that
time, the thrift’s key executives, including the owner of the holding company, also signed confidential
letters certifying that they would not participate as an institution-affiliated party of any OTS-supervised
thrift. OCC reviewed OTS’s documentation and actions and did not find sufficient grounds to support
action against First National Bank Holding Company management.

                        Material Loss Review of First National Bank of Nevada and First Heritage    Page 10
                        Bank, National Association (OIG-09-033)
Furthermore, the owner’s son managed the residential mortgage
division, becoming president of the division in 2004 without any
previous mortgage experience. The banks’ chief financial officer
told FDIC that the owner’s son ran the mortgage division as a
closed, separate operation and wanted no intervention from
anyone.

As mentioned above, the banks’ management failed to address
repeated OCC examiners criticisms concerning underwriting, loan
concentrations, and accounting. In the 2007 and 2008 ROEs, the
examiners discussed their significant concerns about the banks’
board of directors and management. The examiners wrote that the
ineffectiveness of the board and management directly caused the
banks’ significant problems. Examiners found the board and
management to be critically deficient, as they had implemented
high-risk business strategies that allowed the significant
concentrations in high-risk residential mortgage and CRE loans
without adequate risk management practices and without
appropriate accounting policies and procedures. In addition,
management failed to correct weak underwriting pratices within
the CRE and mortgage portfolios and was slow to react to market
changes within these areas.

First Heritage Bank’s Selling (Lending) of Federal Funds to Affiliates

As normal practice, banks are required to maintain a certain
amount of funds in reserve at a Federal Reserve Bank. Federal
funds are overnight borrowings by banks to maintain their bank
reserves with the Federal Reserve. Specifically, banks are required
to maintain a certain level of reserves with the Federal Reserve to
satisfy withdrawal demands and to clear financial transactions.
Banks with reserves in excess of the required minimum amount can
earn interest on the excess reserves by lending, or “selling” as it is
called by market participants, the excess funds to other banks,
usually on an overnight basis. Federal funds transactions neither
increase nor decrease total bank reserves. Instead, they redistribute
reserves and enable otherwise idle funds to yield a return. Banks
may borrow these funds to avoid an overdraft (that is, the balance
going below zero) of their reserve account, or in order to meet the
reserves required to back their deposits.


Material Loss Review of First National Bank of Nevada and First Heritage   Page 11
Bank, National Association (OIG-09-033)
FNB Nevada, FNB Arizona, and First Heritage Bank had long
standing funding interrelationships with each other. For example,
according to OCC officials, First Heritage had a loan participation
with FNB Arizona in the amount of $150 million until December
2007. Additionally, until September 2007, First Heritage Bank
purchased federal funds from FNB Arizona on a regular basis.

In December 2007, First Heritage Bank began selling federal funds
to FNB Arizona and later to FNB Nevada, and this activity
contributed to First Heritage Bank’s failure. In this regard, the
amounts sold to FNB Arizona varied on a daily basis and reached as
high as $89 million a day in May 2008. FNB Arizona became
heavily dependent upon the funds to meet its daily reserve
requirements, as well as to help it maintain liquidity and stability.

First Heritage Bank continued to sell federal funds to FNB Arizona
until June 30, 2008, when FNB Arizona merged into FNB Nevada.
Following the merger, First Heritage Bank sold federal funds to FNB
Nevada to help it maintain liquidity and stability while it attempted
to address losses arising from residential mortgage and CRE
lending.

The selling of federal funds represented a significant risk to the
viability of First Heritage Bank. At the peak, the federal funds sold
to FNB Nevada (and to FNB Arizona pre-merger) amounted to
approximately four times First Heritage Bank’s capital and
approximately one-half of its assets. Accordingly, if the affiliated
banks were at anytime unable to repay the loans, this would cause
First Heritage Bank to become critically undercapitalized.
Ultimately, First Heritage Bank’s capital was in fact depleted,
leaving it critically undercapitalized and forcing OCC to close it as
FNB Nevada, at the time of its failure, owed First Heritage Bank
approximately $74.4 million for the federal funds it had borrowed
but could not repay.




Material Loss Review of First National Bank of Nevada and First Heritage   Page 12
Bank, National Association (OIG-09-033)
OCC’s Supervision of FNB Nevada and First Heritage Bank
             OCC conducted timely and regular examinations of FNB Nevada
             (including FNB Arizona, before it merged with FNB Nevada) and
             First Heritage Bank and provided oversight through its off-site
             monitoring. The scope of the examinations appeared
             comprehensive as indicated by the ROEs, although workpaper
             evidence supporting the examination procedures performed was
             generally limited. In addition, as their financial condition
             deteriorated, OCC used PCA in reclassifying the FNB Arizona, FNB
             Nevada, and First Heritage Bank capital levels and restricting the
             banks’ activities.

             However, as discussed below, we believe that OCC should have
             taken formal enforcement action much sooner, and was not
             aggressive enough in the supervision of the banks when problems
             first arose. OCC identified problems in the mortgage operation of
             FNB Arizona and FNB Nevada as early as 2002 and found
             worsening conditions during subsequent exams into 2008;
             however, OCC took no forceful action until it issued Part 30
             informal (non-public) enforcement actions to FNB Arizona and FNB
             Nevada in April 2008 and formal (public) consent orders to the
             three banks in June 2008.

             Table 3 summarizes the results of OCC’s annual safety and
             soundness examinations and enforcement actions for FNB Arizona,
             FNB Nevada, and First Heritage Bank. Appendix 5 provides details
             of MRAs and other recommended actions.




             Material Loss Review of First National Bank of Nevada and First Heritage   Page 13
             Bank, National Association (OIG-09-033)
Table 3: Summary of OCC’s Safety and Soundness Examinations and Enforcement
         Actions for FNB Arizona, FNB Nevada, and First Heritage Bank
                                                       Examination Results
                                               Number of
                                                 matters        Number of
                      Assets        CAMELS      requiring   recommendations          Enforcement
Date started          ($Millions)    rating     attention     or other issues          actions
FNB Arizona
10/15/2002               $443       2/222123        4                 10             None
10/6/2003                $814       2/222122        1                 6              None
9/20/2004              $1,517       2/222222        1                 8              None
9/19/2005              $2,145       2/222322        5                 9              None
9/11/2006              $2,325       2/212222        6                 9              None
                                                                                     Part 30
                                                                                     issued
10/15/2007             $2,940       4/444532       13                  4             4/8/2008
                                                                                     Consent
                                                                                     order Issued
5/12/2008              $2,836       5/555553        0                 18             6/4/2008
FNB Nevada
10/15/2002               $280       2/222123        4                 10             None
10/6/2003                $663       2/222122        1                 6              None
9/20/2004              $1,068       2/222122        1                 6              None
9/19/2005              $1,325       2/222122        4                 6              None
9/11/2006              $1,511       2/212122        2                 6              None
                                                                                     Part 30
                                    3/333232                                         issued
10/15/2007             $1,433                      12                  3             4/8/2008
                                                                                     Consent
                                    5/555553                                         order Issued
5/08/2008              $1,634                       0                 19             6/4/2008
First Heritage Bank
1/23/2006                $129       2/112322        0                  8             None
10/2/2006                $226       2/212322        2                  4             None

10/15/2007               $232       2/222322        5                  4             None
                                                                                     Consent
                                    5/553553                                         order Issued
5/12/2008                $159                       0                  7             6/4/2008
Source: OCC ROEs and Reports of Condition and Income (call reports).
Note: OCC issued no MRAs in the 2008 ROEs. The purpose of the 2008 ROEs was to downgrade
the banks’ CAMELS ratings. FNB Arizona merged into FNB Nevada on June 30, 2008.




          Material Loss Review of First National Bank of Nevada and First Heritage          Page 14
          Bank, National Association (OIG-09-033)
Forceful Action Not Taken in a Timely Manner to Address the
Banks’ Problems

Problems Found in the 2002 Examinations Were Repeated Through
the 2006 Examinations

OCC first identified problems at FNB Arizona and FNB Nevada in
2002 when OCC performed a targeted review of their mortgage
operations. OCC found that that the condition of FNB Arizona and
FNB Nevada was adversely impacted by the significant
concentration in high-risk mortgage products and weak risk
management controls. The examiners wrote that the viability of the
banks could be impacted if senior bank management did not take
immediate action to address the deficiencies. As it turned out, the
examiners were correct.

OCC examiners found the following management inadequacies
during their targeted review of the banks’ mortgage operations:

•   The boards of directors did not require bank management to
    conduct mortgage-banking activities in a safe and sound
    manner, as evidenced by the lack of concentration limits, weak
    risk management controls, and risky lending policies.

•   Bank capital was strained by the large volumes of high-risk
    mortgage product originated and sold on a monthly basis.

•   Liquidity was inadequate. Although earnings had increased, the
    banks were heavily dependent on volatile mortgage profits.

•   Mortgage underwriting and credit risk management deficiencies,
    along with a concentration in high-risk mortgage lending
    activities, would likely adversely impact asset quality.

Despite these concerns, OCC assigned both FNB Arizona and FNB
Nevada a CAMELS composite rating of 2—the same rating as in
2001 when relatively few problems were noted.

In the ROEs for the 2003 examinations, OCC reported that the two
banks had addressed the deficiencies with their controls over
mortgage operations. While this may have been the case, the

Material Loss Review of First National Bank of Nevada and First Heritage   Page 15
Bank, National Association (OIG-09-033)
examinations conducted from 2004 to 2006 found continuing and
additional problems, and over time these conditions worsened.
These problems included, for example, underwriting weaknesses in
the origination and later the administration of loans, inadequate
accounting policies, an inadequate ALLL methodology, large CRE
concentrations, and weak contingency funding planning. During
these years, OCC examiners assigned the banks composite
CAMELS ratings of 2.

2007 Examination Resulted in an Elevated Response by OCC

OCC concluded in the 2007 examination that the condition of FNB
Arizona and FNB Nevada had deteriorated to the point where the
banks had become a supervisory concern. A major issue at FNB
Arizona, which ultimately affected its sister banks, was the
significant losses incurred by the residential mortgage division.
OCC reported that the division’s projected loss at year-end would
be $168 million. The mortgage losses threatened the viability of
FNB Arizona by eroding its capital, and OCC expected that those
losses would affect FNB Nevada because the bank would need to
support FNB Arizona.

OCC also found CRE risk management weak at FNB Arizona and
FNB Nevada. Further, the examiners found that First Heritage
Bank’s loan portfolio contained CRE concentrations and
weaknesses in its credit administration similar to those found at
FNB Arizona and FNB Nevada.

It also became increasingly apparent to OCC that the banks’
management was slow to respond to prior supervisory
recommendations. OCC blamed the ineffective and insufficient
board oversight for the failures to correct repeated issues and the
declining conditions of FNB Arizona and FNB Nevada. Both the
board and management failed to ensure that accounting policies,
staffing levels, and expertise were commensurate with the
complexities of bank operations. OCC stated in its ROEs that these
issues had been ongoing despite recommendations and MRAs
dating back to the 2004 examinations.

Based on the examination findings, OCC concluded in December
2007 that a formal enforcement action needed to be taken with

Material Loss Review of First National Bank of Nevada and First Heritage   Page 16
Bank, National Association (OIG-09-033)
respect to FNB Arizona. As discussed below, OCC held off on
taking formal action until June 4, 2008.

The decision in December 2007 to pursue a formal enforcement
action was made by OCC’s Western District office based on its
review of the OCC’s field office draft ROE for the 2007
examination. We noted that there were disagreements between the
district officials and the field office examiners as to the severity of
the examination findings on various matters such as liquidity risk.
The Western District office and the field office also had differences
as to the CAMELS ratings that should be assigned to FNB Nevada.
In December 2007, the district downgraded FNB Nevada’s 2007
ROE CAMELS composite rating to a 3 from the 2 recommended by
the field office. The Western District office also decided that a
formal enforcement action was needed for FNB Nevada. In January
2008, the district office also added two MRAs to the ROE that
addressed FNB Nevada’s liquidity problems and accounting issues,
and downgraded the bank’s liquidity component of the risk
assessment profile to weak from satisfactory.

On April 8, 2008, OCC finally issued the 2007 ROEs and
downgraded the CAMELS composite ratings for FNB Arizona and
FNB Nevada to 4 and 3, respectively. OCC had approved the
ratings on December 6, 2007, and communicated the ratings to
the banks on December 10, 2007. OCC retained First Heritage
Bank’s 2007 CAMELS composite rating at 2, despite the significant
impact that the deterioration of FNB Arizona and FNB Nevada had
on its financial condition.

Because the deteriorating conditions of FNB Arizona and FNB
Nevada necessitated the CAMELS ratings downgrades and
implementation of the informal enforcement actions, we believe
OCC should also have downgraded First Heritage Bank’s composite
rating following the 2007 exam. First Heritage Bank’s CAMELS
composite rating of 2, issued April 8, 2008, clearly did not reflect
the bank’s actual condition given the significant deterioration of its
sister banks and the risk posed by its selling of federal funds. OCC
had to significantly downgrade First Heritage Bank’s composite
rating to a 5 from a 2 on June 23, 2008, just 3 months later.



Material Loss Review of First National Bank of Nevada and First Heritage   Page 17
Bank, National Association (OIG-09-033)
                       Enforcement Action Delayed While a Potential Investor Considered
                       Making an Equity Injection in the Banks

                       As stated above, OCC concluded in December 2007 that formal
                       (public) enforcement action should be taken against both FNB
                       Arizona and FNB Nevada. It was not until April 8, 2008, that
                       enforcement actions were taken, when OCC issued FNB Arizona
                       and FNB Nevada a “Notification of Failure to Meet Safety and
                       Soundness Standards and Request for Compliance Plan.” Referred
                       to as a Part 30, this was an informal (non-public) enforcement
                       action. Concurrent with the Part 30, OCC notified bank
                       management that its minimum capital requirements were increased.

                       OCC’s Bank Supervision Operations—Enforcement Action Policy
                       states that there is a strong presumption that banks with a
                       composite rating of 4 or 5 warrant a formal action because they
                       are more likely to fail. The policy, which provides for some
                       management discretion, also states that there is a presumption of
                       issuing either informal or formal enforcement action for 3 rated
                       banks, depending on the management’s ability to take appropriate
                       corrective measures.3 With respect to the timeframes for taking
                       enforcement actions, the policy states that they should be done as
                       soon as practical once the need for the action has been identified.
                       It further states that the decision whether to initiate an
                       enforcement action should be made within 15 days following a
                       decision to assign or retain a composite CAMELS rating of 3, 4, or
                       5. The same policy states that notice of the Part 30 Safety and
                       Soundness Plan should be served to the board of directors within
                       15 days following the final decision to take an enforcement action,
                       and that a consent order (a formal public enforcement action)
                       should be executed within 3 weeks of the final decision to take
                       such action.

                       The main reason OCC delayed action was that an investment firm
                       had expressed interest in making a substantial equity injection into
                       the banks. Bank management informed OCC that the investment
                       firm was likely to inject capital of at least $158 million into FNB
                       Arizona and $32 million into Nevada. The Deputy Comptroller of

3
  Discretion is superseded when actions are required by statute or other legal source, such as monetary
transaction record keeping and reporting required by the Bank Secrecy Act.

                       Material Loss Review of First National Bank of Nevada and First Heritage   Page 18
                       Bank, National Association (OIG-09-033)
the OCC’s Western District told us that OCC met with the
investment firm in December 2007. The investment firm informed
OCC that it would not pursue investing in the banks if OCC issued
a formal enforcement action. While OCC had made a decision to
issue a formal enforcement action in December 2007, OCC officials
concluded in January 2008 that the informal Part 30 action,
coupled with the capital injection, would help address the
weaknesses at FNB Arizona and FNB Nevada and assist in
obtaining adequate capital.

OCC expected that the investment firm’s due diligence process
would be completed by February 2008. However, the process
continued past February and the investment firm communicated to
OCC its continued interest in pursuing the investment. By this time,
the required amount of the capital needed for the banks to remain
viable had more than doubled. As time went on, the amount of
investment needed to sustain the banks increased and the losses
widened. Ultimately, in May 2008, the investment firm concluded
that the projected losses were too high for them to receive the rate
of return necessary to make the deal tenable. OCC’s Senior Deputy
Comptroller for Midsize/Community Bank Supervision told us that
he was more comfortable in January 2008 than in March 2008
that the investor would make the investment.

In its Part 30 action, OCC directed the banks to file acceptable
safety and soundness compliance plans by May 8, 2008. OCC
provided specific criteria that the compliance plans should address.
OCC required that FNB Arizona and FNB Nevada appoint two
external/independent board members, refrain from making new
Alt-A or other non-traditional mortgages without OCC approval,
develop a contingency funding plan, restore accounting records to
comply with GAAP, and ensure appropriate underwriting standards
are used for new CRE loans.

In response, FNB Arizona and FNB Nevada filed the safety and
soundness compliance plans required by the Part 30 action on May
8, 2008. OCC’s Western District Office approved the plans on May
16, 2008, and immediately required both institutions to implement
and adhere to the plans.



Material Loss Review of First National Bank of Nevada and First Heritage   Page 19
Bank, National Association (OIG-09-033)
                      On April 8, 2008, OCC also notified all three banks of its intent to
                      establish higher individual minimum capital ratios by May 30,
                      2008.4 On May 16, 2008, the Western District Office issued
                      letters notifying all three banks that OCC had decided to establish
                      the higher minimum capital ratios. According to OCC documents of
                      verbal interactions with bank management, FNB Arizona and FNB
                      Nevada had been informed earlier in the year that OCC would
                      immediately issue formal enforcement actions should the banks fail
                      to find investors willing to invest capital in the banks and complete
                      the proposed investment by May 31, 2008. When the banks failed
                      to meet that deadline, OCC issued consent orders on June 4,
                      2008. OCC also issued a consent order to First Heritage Bank
                      because of the significant volume of assets it had tied up in its
                      sister banks.

                      OCC’s Western District Deputy Comptroller as well as Special
                      Counsel for the Western District told us that OCC initially drafted
                      and planned to issue a consent order to FNB Arizona and a formal
                      action on FNB Nevada in December 2007. However, we were told
                      that there was a lot of discussion within OCC as to whether to
                      issue the order because the would-be investor had expressed
                      interest in providing the banks with the needed capital. At that
                      time, the investment firm informed OCC that it was very interested
                      in the banks, but that the firm would be unwilling to make the
                      investment if OCC took a formal enforcement action against the
                      banks. The Deputy Comptroller told us that the situation with the
                      banks was unique because of the investor’s involvement.

                      According to OCC officials, OCC was in a position to issue the
                      informal Part 30 actions to FNB Arizona and FNB Nevada
                      immediately after the Senior Deputy Comptroller agreed with the
                      action in January 2008. However, as a prudent measure, the
                      Senior Deputy Comptroller presented the case and the
                      recommendation to issue the Part 30 actions to OCC’s Washington
                      Supervision Review Committee (WSRC). This presentation occurred
                      on March 20, 2008. During the presentation, the Senior Deputy
                      Controller said he verbally communicated to WSRC that it would be
                      appropriate to have a Part 30 action in place during investor

4
 OCC’s authority to require such action is found at 12 USC. § 3907(a)(2) and 12 CFR Part 3,
Subpart C.

                      Material Loss Review of First National Bank of Nevada and First Heritage   Page 20
                      Bank, National Association (OIG-09-033)
negotiation and possible sale of the bank. WSRC concurred with
the recommended action but only if the investor had a definitive
agreement with the banks to make the investment and if bank
control issues were resolved favorably. If such an agreement was
not in place, WSRC recommended that OCC should move
immediately to impose the formal actions on the banks.

OCC, however, issued the informal Part 30 action on April 8,
2008, with no definitive investment agreement in place. The Senior
Deputy Comptroller told us that he recognized that the
circumstances called for a consent order. However, the ultimate
decision to issue the informal Part 30 action rather than the formal
consent order was his. He said his decision was made in
accordance with OCC policy that provides the Senior Deputy
Comptroller with authority to use informal enforcement action in
this manner.

While it could be argued that OCC allowed the investor too much
time to consider the capital injection before OCC started taking
enforcement action, we recognized the dilemma facing OCC in this
matter. It is also important to note that OCC policy allows for
discretion in the taking of enforcement actions with authorization
by senior management. In this case, the enforcement approach
toward FNB Nevada and First Heritage Bank was approved at the
senior OCC management level in accordance with policy. While the
timing of the various enforcement actions was somewhat delayed,
in the end we conclude that OCC senior management used its
enforcement discretion in an appropriate manner. That said, OCC
needs to be careful when exercising such enforcement discretion
that it can later defend its actions when an ailing institution cannot
ultimately be saved.

OCC Acknowledged It Did Not Effectively Supervise FNB Arizona

As part of the process to meet the internal control requirements of
the Federal Managers’ Financial Integrity Act (FMFIA), OCC
executive committee members submit FMFIA certification to the
Comptroller in which management attest that programs under their
areas of responsibility are achieving the intended results, consistent



Material Loss Review of First National Bank of Nevada and First Heritage   Page 21
Bank, National Association (OIG-09-033)
                     with OCC’s mission and following rules and regulations, and that
                     timely and reliable information was used for decision-making.5

                     The Deputy Comptroller for the Western District wrote in her fiscal
                     year 2008 assurance statement to the Comptroller that OCC had
                     not effectively supervised FNB Arizona and although OCC
                     appropriately identified many of the risks in the bank, OCC did not
                     require corrective action from bank management as aggressively as
                     it should have. The assurance statement also noted that issues at
                     FNB Arizona spilled into FNB Nevada and First Heritage Bank.

                     Examination Workpapers Generally Lacked Specificity and the Basis
                     for Conclusions Were Not Always Clear

                     OCC polices and procedures applicable to supervision workpapers
                     require that examiners prepare clear and concise workpapers that
                     other examiners and reviewers can readily understand.6 While
                     workpapers are not required to include all of the data reviewed,
                     examiners should generate and retain documents necessary to
                     support the scope of the supervisory activity, significant
                     conclusions, rating changes, or changes in risk profiles.

                     We found that the workpapers supporting the examinations of FNB
                     Arizona, FNB Nevada, and First Heritage Bank generally lacked
                     clarity, specificity, and support for many of the conclusions
                     reached and what examination procedures were performed.

                     A 2006 internal OCC quality assurance review of the supervisory
                     activities performed on FNB Arizona also found problems with the
                     examination workpapers. The reviewers noted that (1) the
                     examiners’ follow-up on issues identified in a prior exam was not
                     properly documented and (2) an OCC supervisory letter to the bank
                     referenced in the ROE could not be found.




5
  The Federal Managers’ Financial Integrity Act (31 USC § 3512), as implemented by the Office of
Management and Budget, requires agencies to perform regular evaluations of management controls and
financial management systems to protect against fraud, waste, and abuse.
6
  OCC PPM 5400-8, section: Bank Supervision, Subject Supervision Work Papers, Revised October 23,
2002.

                     Material Loss Review of First National Bank of Nevada and First Heritage   Page 22
                     Bank, National Association (OIG-09-033)
                      Based on the above, we believe adequacy of examination
                      workpapers is an area that requires continuous OCC management
                      attention.

                      OCC Used Prompt Corrective Action Appropriately

                      The purpose of PCA is to resolve the problems of insured
                      depository institutions at the point at which there is the least
                      possible long-term loss to the Deposit Insurance Fund.7 PCA
                      provides federal banking agencies with the authority to take certain
                      actions when an institution’s capital drops to certain levels. PCA
                      also gives regulators flexibility to discipline institutions based on
                      criteria other than capital to help reduce deposit insurance losses
                      caused by unsafe and unsound practices. For example, OCC’s Bank
                      Supervision Operations—Enforcement Action Policy allows for
                      imposing more severe limitations than a bank’s PCA capital
                      category would otherwise permit or require, if it is determined that
                      the bank is in an unsafe or unsound condition or engaging in unsafe
                      or unsound practices.

                      OCC used the mandatory and discretionary PCA provisions against
                      FNB Arizona, FNB Nevada, and First Heritage Bank, as prescribed in
                      its enforcement action policy, as follows:

                      •   OCC notified FNB Arizona that the bank was downgraded to the
                          adequately capitalized category on February 11, 2008, and that
                          because it was categorized as adequately capitalized, it no
                          longer could receive or renew brokered deposits unless
                          specifically authorized by FDIC. OCC notified FNB Arizona that
                          the bank was downgraded to the undercapitalized category on
                          May 14, 2008, and significantly undercapitalized category on
                          June 23, 2008. On May 14, 2008, OCC required the bank to
                          submit an acceptable capital restoration plan to become
                          adequately capitalized and required a guaranty and pledge of
                          assets from the holding company. FNB Arizona submitted a
                          capital restoration plan but OCC deemed it unacceptable on
                          June 27, 2008.



7
    12 USC § 1831o and 12 CFR § 6.

                      Material Loss Review of First National Bank of Nevada and First Heritage   Page 23
                      Bank, National Association (OIG-09-033)
•   OCC likewise notified FNB Nevada that the bank was
    adequately capitalized on May 14, 2008, and that it could not
    receive or renew brokered deposits unless authorized by FDIC.
    Following the merger with FNB Arizona, FNB Nevada’s capital
    ratios declined to the undercapitalized category. OCC notified
    the bank of this change in a letter dated July 2, 2008.

•   Although First Heritage Bank’s capital ratios reflected the well-
    capitalized category for PCA purposes, as a result of the
    consent order issued on June 4, 2008, First Heritage Bank was
    no longer considered well-capitalized. First Heritage Bank
    became critically undercapitalized when OCC closed FNB
    Nevada on July 25, 2008. At that time, First Heritage Bank had
    a capital position of negative $58.7 million as a result of having
    to record a loss of $74.4 million in federal funds that it had sold
    to but could not collect from FNB Nevada. OCC immediately
    placed First Heritage Bank in receivership with FDIC.

We also found that in May 2008, First Heritage Bank began
accepting brokered deposits after this source of funds was no
longer available to FNB Arizona and FNB Nevada. The brokered
deposits obtained by First Heritage Bank were used to finance the
sale of federal funds to FNB Arizona and FNB Nevada. We asked
the Western District’s Deputy Comptroller why First Heritage Bank
was allowed to accept brokered deposits when its affiliates were
prohibited from doing so. The OCC official told us that the impact
of the brokered deposits was considered as part of the daily onsite
liquidity monitoring but OCC’s main concern was the stability of
the overall consolidated company. She said that OCC did not have
the legal authority to immediately prevent First Heritage Bank from
accepting brokered deposits in May 2008 because First Heritage
Bank was still well-capitalized. However, about a month later, by
virtue of the June 4, 2008, consent order, First Heritage Bank was
also prohibited from accepting brokered deposits.

OCC Transferred Supervision of the Banks to its Special
Supervision Division to Facilitate Closings

On June 23, 2008, OCC notified FNB Arizona, FNB Nevada, and
First Heritage Bank that they were in critical condition and their
failure was highly probable without an immediate injection of

Material Loss Review of First National Bank of Nevada and First Heritage   Page 24
Bank, National Association (OIG-09-033)
           capital. OCC downgraded the banks to a CAMELS composite rating
           of 5 and transferred supervision to its Special Supervision Division
           in Washington, D.C., in accordance with OCC’s Examiner’s Guide
           to Problem Bank Identification, Rehabilitation, and Resolution. The
           role of the Special Supervision Division is to supervise problem
           banks through rehabilitation or through other resolution processes
           such as the sale, merger, or liquidation of such institutions. The
           guide states that supervisory responsibility transfers automatically
           once a bank is downgraded to a 5.

           The Special Supervision Division directed the overall supervision of
           the banks until their closure on July 25, 2008. The Special
           Supervision Division supervisory actions in the case of these banks
           included reviewing required capital restoration plans, working with
           FDIC and Federal Reserve personnel, and issuing PCA notices. By
           the time of the transfer to Special Supervision Division, the
           financial condition of the banks had deteriorated rapidly and they
           had no viable plan to restore capital and achieve profitability. As a
           result, OCC exercised its authority to close the banks and
           appointed FDIC as receiver on July 25, 2008.


Recommendations
           1. OCC acknowledged that it had not effectively supervised FNB
              Arizona and that issues at FNB Arizona later spilled into FNB
              Nevada and First Heritage Bank. While we did not find
              weaknesses in OCC’s supervisory policy and procedures in this
              regard, we do recommend that the Comptroller of the Currency
              re-emphasize to examiners the need to ensure banks take swift
              corrective actions in response to examination findings.

               Management Response

               OCC plans to reinforce the requirements of its Enforcement
               Action Policies and emphasize to examiners the need to ensure
               banks take swift corrective actions in response to examination
               findings. OCC also plans to include follow-up on outstanding
               concerns in the supervisory strategies for individual banks, and
               to track that follow-up. In addition, follow-up on supervisory
               concerns will remain in the scope of OCC’s quality assurance

           Material Loss Review of First National Bank of Nevada and First Heritage   Page 25
           Bank, National Association (OIG-09-033)
    processes, and OCC will make certain that, if appropriate,
    communication of quality assurance results includes
    observations about examiner efforts to ensure banks promptly
    address supervisory concerns. In this regard, subsequent to the
    failure of FNB Nevada and First Heritage Bank, OCC’s Enterprise
    Governance unit conducted a special review to confirm that all
    community bank quality assurance programs contain specific
    quality management elements pertaining to corrective action,
    follow-up, and enforcement. OCC also plans to reiterate to
    examiners in an upcoming conference call the importance of
    ensuring that banks take timely actions to address examination
    findings.

2. To address the issue related to examination workpapers, we
   further recommend that the Comptroller of the Currency re-
   emphasize to examiners OCC’s policy on the preparation of
   supervision workpapers (e.g., workpapers are to be clear,
   concise, and readily understood by other examiners and
   reviewers).

    Management Response

    OCC plans to ensure that observations about the quality of
    workpapers identified as part of its quality assurance processes
    involving regular reviews of samples of supervision workpapers,
    and recommendations for improving documentation, are
    included in the communication of quality assurance results to
    examiners. OCC also plans to address the importance of
    workpaper quality and completeness in an upcoming conference
    call with examiners.

OIG Comment

OCC’s actions, both taken and planned, meet the intent of our
recommendations. These are matters that require continued OCC
management attention and monitoring.




Material Loss Review of First National Bank of Nevada and First Heritage   Page 26
Bank, National Association (OIG-09-033)
                                   ******


We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or Mark Ossinger, Audit Manager,
at (617) 223-8643. Major contributors to this report are listed in
Appendix 7.



Donald P. Benson
Audit Director




Material Loss Review of First National Bank of Nevada and First Heritage   Page 27
Bank, National Association (OIG-09-033)
Appendix 1
Objectives, Scope, and Methodology




We conducted this material loss review of First National Bank of
Nevada (FNB Nevada) and First Heritage Bank, N.A. (First Heritage
Bank) in response to our mandate under section 38(k) of the
Federal Deposit Insurance Act, as amended. This section provides
that if a Deposit Insurance Fund incurs a material loss with respect
to an insured depository institution, the inspector general for the
appropriate federal banking agency is to prepare a report to the
agency, which shall

•   ascertain why the institution’s problems resulted in a material
    loss to the insurance fund,

•   review the agency’s supervision of the institution, including
    implementation of the Prompt Corrective Action (PCA)
    provisions of section 38, and

•   make recommendations for preventing any such loss in the
    future.

Section 38(k) defines a loss as material if it exceeds the greater of
$25 million or 2 percent of the institution’s total assets. The law
also requires the inspector general to complete the report within
6 months after it becomes apparent that a material loss has been
incurred.

We initiated a material loss review of FNB Nevada and First
Heritage Bank based on the loss estimate by the Federal Deposit
Insurance Corporation (FDIC). As of December 31, 2008, FDIC’s
Deposit Insurance Fund had recorded an estimated loss of $706
million for FNB Nevada and $33 million for First Heritage Bank. We
also included in this review information from a third OCC bank,
First National Bank of Arizona (FNB Arizona), which merged into
FNB Nevada on June 30, 2008, 1 month before the banks failed.

To accomplish our review, we conducted fieldwork at Office of the
Comptroller of the Currency’s (OCC) headquarters in Washington,
D.C., its Western District office in Denver, Colorado, and its field
office in Phoenix, Arizona. We also met with officials from FDIC’s
Division of Resolutions and Receiverships in Dallas, Texas. Our
specific activities consisted of the following:


Material Loss Review of First National Bank of Nevada and First Heritage   Page 28
Bank, National Association (OIG-09-033)
Appendix 1
Objectives, Scope, and Methodology




•   We reviewed OCC supervisory records for FNB Arizona, FNB
    Nevada, and First Heritage Bank from 2002 through 2008. We
    analyzed examination reports, supporting workpapers, and
    related supervisory and enforcement correspondence. We
    performed these analyses to gain an understanding of the
    problems identified, the approach and methodology OCC used
    to assess the bank’s condition, and the regulatory action used
    by OCC to compel bank management to address deficient
    conditions. We did not conduct an independent or separate
    detailed review of the external auditor’s work or associated
    workpapers other than those incidentally available through the
    supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of FNB Arizona, FNB Nevada, and First Heritage
    Bank with OCC officials, attorneys, and examination staff to
    obtain their perspective on why the banks failed. We also
    interviewed an FDIC supervisory examiner who was responsible
    for monitoring the daily liquidity of the banks prior to their
    closing.

•   We interviewed FDIC Division of Resolutions and Receiverships
    personnel involved in the closings and receivership of FNB
    Nevada and First Heritage Bank.

In reviewing OCC’s supervision of the banks, we assessed (1) the
timeliness of OCC’s discovery of the banks’ safety and soundness
problems; (2) the types and gravity of the problems, and OCC’s
reporting of such; and (3) the adequacy of OCC’s supervisory
response to get the banks to correct the problems.

We did not assess OCC’s overall management control structure
because of the limited audit objectives. Regarding compliance with
laws and regulations, we determined OCC’s compliance with and
use of the provisions of Prompt Corrective Actions (PCA).

We did not assess the validity and reliability of computer-processed
data from OCC or FDIC because such data were not significant to
the objectives of the audit and did not affect the results. Instead,
we relied on interviews, correspondence, and other evidence to
support the result of our audit.

Material Loss Review of First National Bank of Nevada and First Heritage   Page 29
Bank, National Association (OIG-09-033)
Appendix 1
Objectives, Scope, and Methodology




Our review covered the period from 2002 until the failures of FNB
Nevada and First Heritage Bank on July 25, 2008. We conducted
our fieldwork from August 2008 through December 2008. We
conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of First National Bank of Nevada and First Heritage   Page 30
Bank, National Association (OIG-09-033)
Appendix 2
Background




History of FNB Nevada and First Heritage Bank

First National Bank of Nevada (FNB Nevada) was established in
1987 as Laughlin National Bank and changed to its current name in
1998. On June 30, 2008, First National Bank of Arizona (FNB
Arizona) merged with FNB Nevada. The post-merge FNB Nevada
had $3.4 billion in assets and, in addition to its main office, 24
branch locations.

Prior to the merger, First National Bank Holding Company owned
95 percent of FNB Arizona and all of FNB Nevada. The holding
company owned 100 percent of the combined bank.

First National Bank Holding Company also owned First Heritage
Bank, which was established in 2005 as a community bank
specializing in commercial banking. As of June 30, 2008, First
Heritage Bank had $254 million in assets and three offices in
California. The holding company managed FNB Arizona, FNB
Nevada, and First Heritage Bank jointly, with common management
and similar boards and some centralized functions.

Appendix 4 presents a chronology of significant events concerning
FNB Nevada and First Heritage Bank.

Types of Examinations Conducted by OCC

OCC conducts various types of bank examinations, including full-
scope examinations. A full-scope examination is a combined
examination of the institution’s safety and soundness, compliance
with various rules and regulations, and information technology (IT)
systems. The safety and soundness portion of the examination
includes a review and evaluation of capital adequacy, asset quality,
management effectiveness, earnings performance, liquidity and
asset/liability management, and sensitivity to market risk. The IT
portion of the full-scope examination evaluates the overall
performance of IT within the institution and the institution’s ability
to identify, measure, monitor, and control technology-related risks.
The compliance portion of the examination includes an assessment
of how well the bank manages compliance with various consumer
protection regulations, such as Truth in Lending, Truth in Savings,
and the Bank Secrecy Act. A targeted examination is any

Material Loss Review of First National Bank of Nevada and First Heritage   Page 31
Bank, National Association (OIG-09-033)
                      Appendix 2
                      Background




                      examination that does not fulfill all the statutory requirements of a
                      full-scope examination.8

                      The results of full-scope examinations are used to assign ratings to
                      banks. OCC, like other bank regulatory agencies, uses the Uniform
                      Financial Institutions Rating System, commonly called CAMELS
                      ratings. A bank’s composite rating under CAMELS integrates
                      ratings from six component areas: capital adequacy, asset quality,
                      management, earnings, liquidity, and sensitivity to market risk.

                      OCC assigns each banking organization individual CAMELS
                      component ratings and a composite rating that indicates the
                      institution’s overall condition. CAMELS composite and component
                      ratings are on a five-point scale, with 1 being the best score and 5
                      being the worst score. A bank assigned a composite rating of 1 is
                      sound in every respect, generally has components rated 1 or 2, and
                      gives no cause for supervisory concern. Banks with a composite
                      rating of 2 are fundamentally sound, generally have no component
                      rated 4 or 5, and exhibit no material supervisory concerns. Banks
                      with a composite rating of 3 exhibit some degree of supervisory
                      concern in one or more component areas, generally have no
                      component with a rating of 5, and require more than normal
                      supervision, which may include formal or informal enforcement
                      actions. Banks with a composite rating of 4 exhibit unsafe and
                      unsound practices and have problems ranging from severe to
                      critically deficient that are not being satisfactorily addressed by
                      management. Banks with a composite rating of 5 exhibit extremely
                      unsafe and unsound practices or conditions, have critically deficient
                      performance, and present the greatest supervisory concern.

                      Types of Enforcement Actions Available to OCC

                      OCC uses informal and formal enforcement actions to address
                      violations of laws, rules, regulations, and unsafe and unsound
                      practices or conditions.


8
  12 USC § 1820(d), generally requires that the appropriate federal banking agency, conduct a full-
scope, on-site examination of each insured depository institution at least once during each 12-month
period. However, the 12-month period may be extended to 18 months depending on the size and other
circumstances of the affected institution.


                      Material Loss Review of First National Bank of Nevada and First Heritage   Page 32
                      Bank, National Association (OIG-09-033)
Appendix 2
Background




Informal Enforcement Actions

When a bank’s overall condition is sound but it is necessary to
obtain written commitments from its board of directors to ensure
that identified problems and weaknesses will be corrected, OCC
may use informal enforcement actions. Informal enforcement
actions provide a bank with more explicit guidance and direction
than a Report of Examination (ROE) normally contains but are
generally not legally binding.

Informal enforcement actions include commitment letters,
memoranda of understanding (MOU), and Part 30 safety and
soundness plans. A commitment letter and MOU contain specific
bank commitments to take corrective actions in response to
problems or concerns identified by OCC in its supervision of the
bank. A Part 30 informal enforcement action requires the bank to
submit a compliance plan for OCC approval that outlines the steps
the bank will take and timeframes to correct identified deficiencies.
Unlike formal enforcement actions, informal actions are not
disclosed to the public.

Formal Enforcement Actions

Formal enforcement actions are authorized by statute, generally
more severe, and disclosed to the public. Formal actions are also
enforceable through the assessment of civil money penalties and,
with the exception of formal agreements, through the federal court
system. Formal enforcement actions available to OCC include
consent orders, cease and desist orders, formal written
agreements, and PCA directives.

OCC Enforcement Guidelines

OCC policy specifies that determining the appropriate enforcement
action, whether informal or formal, depends on the following:

•   the overall condition of the bank;

•   the nature, extent, and severity of the bank’s problems and
    weaknesses;


Material Loss Review of First National Bank of Nevada and First Heritage   Page 33
Bank, National Association (OIG-09-033)
                        Appendix 2
                        Background




                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and

                        •   the existence of previously identified but unaddressed problems
                            or weaknesses.9




9
    Bank Supervision Operations—Enforcement Action Policy (PPM 5310-3).



                        Material Loss Review of First National Bank of Nevada and First Heritage   Page 34
                        Bank, National Association (OIG-09-033)
                    Appendix 3
                    Glossary of Terms




Adversely classified assets          Assets rated as substandard, doubtful, and loss.
                                     Substandard assets are inadequately protected by the
                                     current worth and paying capacity of the obligor or of
                                     the collateral pledged, if any. A doubtful asset has all
                                     the weaknesses of a substandard asset with the
                                     added characteristic that the weaknesses make
                                     collection or liquidation in full questionable and
                                     improbable. A loss asset is considered uncollectible
                                     and of such little value that continuation as a bankable
                                     asset is not warranted.

Allowance for loan and               A valuation reserve established and maintained by
lease losses                         charges against a bank’s operating income. As a
                                     valuation reserve, it is an estimate of uncollectible
                                     amounts that is used to reduce the book value of
                                     loans and leases to the amount that is expected to be
                                     collected. Valuation allowances established to absorb
                                     unidentified losses inherent in an institution’s overall
                                     loan and lease portfolio are referred to as the
                                     allowance for loan and lease losses.

Alt-A loan                           A mortgage made to a borrower that typically does
                                     not involve income verification or documentation of
                                     income, assets, or employment. Instead, the approval
                                     of the loan is based primarily on an individual
                                     applicant’s FICO score.

Brokered deposits                    Any deposit that is obtained, directly or indirectly,
                                     from a deposit broker. The bank solicits deposits by
                                     offering rates of interest that are significantly higher
                                     than the rates offered by other insured depository
                                     institutions in its normal market area. Under
                                     12 USC § 1831(f) and 12 CFR § 337.6, the use of
                                     brokered deposits is limited to well-capitalized insured
                                     depository institutions and, with a waiver from the
                                     FDIC, to adequately capitalized institutions.
                                     Undercapitalized institutions are not permitted to
                                     accept brokered deposits.

Call report                          A quarterly report of income and financial condition
                                     that banks file with their regulatory agency. The

                    Material Loss Review of First National Bank of Nevada and First Heritage   Page 35
                    Bank, National Association (OIG-09-033)
                     Appendix 3
                     Glossary of Terms




                                      contents of a call report include consolidated detailed
                                      financial information on assets, liabilities, capital, and
                                      loans to executive officers, as well as income,
                                      expenses, and changes in capital accounts.

CAMELS                                CAMELS is an acronym for the following performance
                                      rating components: Capital adequacy, Asset quality,
                                      Management administration, Earnings, Liquidity, and
                                      Sensitivity to market risk. Numerical values range from
                                      1 to 5, with 1 being the best rating and 5 being the
                                      worst rating.

Capital restoration plan              A plan submitted to the appropriate federal banking
                                      agency by any undercapitalized insured depository
                                      institution. The plan specifies the steps the insured
                                      depository institution will take to become adequately
                                      capitalized, the levels of capital to be attained during
                                      each year in which the plan is in effect, how the
                                      institution will comply with the restrictions or
                                      requirements then in effect, the types and levels of
                                      activities in which the institution will engage, and any
                                      other information that the federal banking agency may
                                      require.

Commercial real estate loans          Loans secured by raw land, land development, and
                                      construction. Commercial real estate includes one-to
                                      four-family residential construction, multifamily
                                      property, and nonfarm nonresidential property where
                                      the primary or a significant source of repayment is
                                      from rental income associated with the property (i.e.,
                                      loans for which 50 percent or more of the source of
                                      repayment comes from third-party, nonaffiliated,
                                      rental income) or the proceeds of the sale, refinancing,
                                      or permanent financing of the property.

Concentration risk                    Risk in a loan portfolio that arises when a
                                      disproportionate number of an institution’s loans are
                                      concentrated in one or a small number of financial
                                      sectors, geographical areas, or borrowers. If loans are
                                      more broadly distributed, weaknesses confined to one
                                      or a small number of sectors, areas, or borrowers

                     Material Loss Review of First National Bank of Nevada and First Heritage   Page 36
                     Bank, National Association (OIG-09-033)
                       Appendix 3
                       Glossary of Terms




                                        would pose a smaller risk to the institution’s financial
                                        health.

Consent order                           The title given by OCC to an Order to Cease and
                                        Desist, which is entered into and becomes final
                                        through the board of directors’ execution on behalf of
                                        the bank of a stipulation and consent document. Its
                                        provisions are set out in article-by-article form and
                                        prescribe restrictions and corrective and remedial
                                        measures necessary to correct deficiencies or
                                        violations in the bank and return it to a safe and sound
                                        condition.

Correspondent channel                   The selling of loans whereby a correspondent lender
                                        not only takes the application and processes the loan,
                                        but also funds the loan. The correspondent then sells
                                        the loan to a wholesale lender, usually under a
                                        previous commitment of the wholesaler to purchase a
                                        certain amount of loans at an agreed-upon interest
                                        rate.

De novo bank                            A newly chartered bank opened less than 3 years.

District Supervision                    An OCC committee that ensures that OCC bank
Review Committee                        supervision and enforcement policies are applied
                                        effectively and consistently. The committee advises
                                        the deputy comptrollers on bank supervision and
                                        enforcement cases by providing recommendations on
                                        supervisory strategies and enforcement actions.

Formal agreement                        A type of formal enforcement action authorized by
                                        statute. Formal agreements are generally more severe
                                        than informal actions and are disclosed to the public.
                                        Formal actions are also enforceable through the
                                        assessment of civil money penalties.

Generally accepted                      A widely accepted set of rules, conventions,
accounting principles                   standards, and procedures for reporting financial
                                        information, as established by the Financial
                                        Accounting Standards Board.


                       Material Loss Review of First National Bank of Nevada and First Heritage   Page 37
                       Bank, National Association (OIG-09-033)
                     Appendix 3
                     Glossary of Terms




Individual minimum                    Established under OCC authority, a minimum level of
capital ratio                         capital for a banking institution that OCC considers to
                                      be necessary or appropriate in light of the particular
                                      circumstances of the institution.

Loan participation                    The sharing of a loan by a group of banks that join
                                      together to make a loan too large for any one of the
                                      banks to handle. Loan participation is a convenient
                                      way for smaller banks to book loans that would
                                      otherwise exceed their legal lending limits.

Matter requiring attention            A bank practice noted during an examination that
                                      deviates from sound governance, internal control, and
                                      risk management principles, which may adversely
                                      affect the bank’s earnings or capital, risk profile, or
                                      reputation if not addressed or which may result in
                                      substantive noncompliance with laws and regulations,
                                      internal policies or processes, OCC supervisory
                                      guidance, or conditions imposed in writing in
                                      connection with the approval of any application or
                                      other request by a bank. Matters requiring attention
                                      are not enforcement actions, but failure by a bank’s
                                      board and management to address a matter requiring
                                      attention could lead to an enforcement action.

Part 30 Safety and                    An informal, nonpublic enforcement action.
Soundness Plan                        It informs the recipient of OCC's conclusion that the
                                      bank failed to meet established safety and soundness
                                      standards and requires the bank to submit a
                                      compliance plan to describe the steps the institution
                                      will take to correct the deficiencies and establish the
                                      time period for when the actions will be taken.

Prompt Corrective Action              A framework of supervisory actions, set forth in
                                      12 USC § 1831o, for insured banks that are not
                                      adequately capitalized. It was intended to ensure that
                                      action is taken when an institution becomes financially
                                      troubled in order to prevent a failure or minimize
                                      resulting losses. These actions become increasingly
                                      severe as a bank falls into lower capital categories.
                                      The capital categories are well-capitalized, adequately

                     Material Loss Review of First National Bank of Nevada and First Heritage   Page 38
                     Bank, National Association (OIG-09-033)
                   Appendix 3
                   Glossary of Terms




                                    capitalized, undercapitalized, significantly
                                    undercapitalized, and critically undercapitalized.

Relationship concentrations         Concentration of loans and/or other obligations to one
                                    borrower or related group of borrowers.

Repurchase reserve                  Funds earmarked by a bank from its retained earnings
                                    for potential future repurchase of nonperforming or
                                    nonconforming loans sold to investors.

Retail channel                      The selling of loans whereby the lender offers
                                    mortgage loans directly to borrowers through a sales
                                    force of loan officers.

Risk Assessment Profile             A measure of the quantity and quality of risk
                                    management that OCC assigns to each of the
                                    following 9 risk categories for bank supervision
                                    purposes: credit, interest rate, liquidity, price, foreign
                                    currency translation, transaction, compliance,
                                    strategic, and reputation. Quantity of risk represents
                                    the level or volume of risk that currently exists and is
                                    assessed as low, moderate, or high. Quality of risk
                                    management is how well risks are identified,
                                    measured, controlled, and monitored, and is assessed
                                    as strong, satisfactory, or weak.

Tier 1 capital                      Common shareholder’s equity (common stock,
                                    surplus, and retained earnings), noncumulative
                                    perpetual preferred stock, and minority interests in the
                                    equity accounts of consolidated subsidiaries.

Washington Supervision              An OCC committee that advises senior deputy
Review Committee                    comptrollers on bank supervision and enforcement
                                    cases by providing recommendations on supervisory
                                    strategies and enforcement actions. The committee is
                                    chaired by the deputy comptroller for Special
                                    Supervision.

Well-capitalized                    An insured depository institution that significantly
                                    exceeds the required minimum level for each relevant
                                    capital measure.

                   Material Loss Review of First National Bank of Nevada and First Heritage   Page 39
                   Bank, National Association (OIG-09-033)
                    Appendix 3
                    Glossary of Terms




Wholesale channel                    The selling of loans whereby the lender does not deal
                                     directly with the consumer to acquire loans. Instead,
                                     the lender and consumer work though an intermediary,
                                     such as a mortgage broker.




                    Material Loss Review of First National Bank of Nevada and First Heritage   Page 40
                    Bank, National Association (OIG-09-033)
                       Appendix 4
                       Chronology of Significant Events




This chronology describes significant events in the history of First National Bank of Nevada (FNB
Nevada) and First Heritage Bank, National Association (First Heritage Bank), including examinations
conducted and enforcement actions taken by the Office of the Comptroller of the Currency (OCC).

 Date                      Event
 07/23/1987                Laughlin National Bank is established.
 09/02/1998                Laughlin National Bank is renamed FNB Nevada.
 01/31/2001                Rocky Mountain Bank changes its name to FNB Arizona and is reorganized
                           as a national bank. OCC becomes the bank’s primary regulator.
 06/01/2001                FNB Arizona acquires First Bank of Arizona, National Association. FNB
                           Arizona moves its headquarters to Scottsdale, Arizona.
 06/27/2001                OCC examines FNB Arizona’s and FNB Nevada’s risk management practices
                           and financial condition. OCC assigns both banks a CAMELS composite
                           rating of 2.
 08/08/2002                FNB Nevada reorganizes and moves its headquarters from Laughlin,
                           Nevada, to Reno, Nevada.
 10/15/2002 to             OCC examines FNB Arizona’s and FNB Nevada’s risk management
 11/25/2002                processes, financial condition, and mortgage operations. OCC assigns both
                           banks a CAMELS composite rating of 2.
 10/06/2003 to             OCC examines FNB Arizona’s and FNB Nevada’s financial condition and risk
 10/31/2003                profile and evaluates compliance management and information technology
                           functions. OCC assigns both banks a CAMELS composite rating of 2.
 09/20/2004 to             OCC begins a safety and soundness exam of the FNB Arizona and FNB
 10/28/2004                Nevada. OCC assigns both FNB Arizona and FNB Nevada a CAMELS
                           composite rating of 2.
 02/15/2005                First Heritage Bank is established.
 06/28/2005                OCC issues a letter to First Heritage Bank with results of its de novo site
                           visit. OCC makes six recommendations to the board of directors and does
                           not require a formal response.
 09/19/2005 to             OCC conducts a safety and soundness exam of FNB Arizona and FNB
 11/08/2005                Nevada. OCC assigns both FNB Arizona and FNB Nevada a CAMELS
                           composite rating of 2.
 01/23/2006 to             OCC conducts a safety and soundness exam of First Heritage Bank. OCC
 2/02/2006                 assigns a CAMELS composite rating of 2.
 09/11/2006 to             OCC conducts a safety and soundness exam of FNB Arizona and FNB
 11/16/2006                Nevada. OCC assigns both FNB Arizona and FNB Nevada a CAMELS
                           composite rating of 2.
 10/02/2006 to             OCC conducts a safety and soundness exam of First Heritage Bank. OCC
 11/16/2006                assigns the bank a CAMELS composite rating of 2.
 05/08/2007                OCC approves the merger of FNB Arizona into FNB Nevada. The banks are
                           given 1 year to complete the merger before the approval expires.
 08/21/2007                FNB Arizona closes its residential mortgage division.
 09/30/2007                The president (the owner’s son) of the residential mortgage division resigns.
 10/15/2007 to             OCC conducts a safety and soundness exam of FNB Arizona, FNB Nevada,
 11/23/2007                and First Heritage Bank. OCC assigns FNB Arizona, FNB Nevada, and First
                           Heritage Bank CAMELS composite ratings of 4, 3, and 2, respectively.



                       Material Loss Review of First National Bank of Nevada and First Heritage   Page 41
                       Bank, National Association (OIG-09-033)
             Appendix 4
             Chronology of Significant Events




Date             Event
12/06/2007       OCC’s Western District Supervision Review Committee approves a
                 CAMELS composite rating of 4 and a consent order for FNB Arizona and a
                 CAMELS composite rating of 3 and the institution of a formal agreement
                 for FNB Nevada.
12/19/2007       OCC meets with an investment firm interested in providing the banks with
                 capital. The firm informs OCC that it will not make the investment if FNB
                 Arizona is under a public enforcement action.
12/31/2007       Bank data indicate that as of year-end 2007, First Heritage Bank had sold a
                 $60 million of federal funds to FNB Arizona.
01/10/2008       OCC informs FNB Arizona and FNB Nevada that they are in “troubled
                 condition” for purposes of section 914 of the Financial Institutions Reform,
                 Recovery, and Enforcement Act of 1989, 12 USC § 1831(i), and as defined
                 in OCC’s implementing regulation and 12 CFR § 5.51.
01/14/2008       OCC conducts a horizontal review of commercial real estate loans of FNB
                 Arizona, FNB Nevada, and First Heritage Bank.
02/11/2008       OCC informs FNB Arizona that the bank cannot receive or renew brokered
                 deposits unless specifically authorized by FDIC because the bank is in the
                 adequately capitalized PCA category.
03/20/2008       OCC’s Washington Supervision Review Committee concurs with the
                 Western District to issue 12 CFR Part 30 Safety and Soundness Plans (Part
                 30) to FNB Arizona and FNB Nevada instead of cease and desist orders.
                 The Senior Deputy Comptroller for Midsize/Community Bank Supervision
                 approves the Part 30.
03/31/2008       First Heritage Bank sells $41.9 million of federal funds to FNB Arizona and
                 FNB Nevada.
04/08/2008       OCC requires that FNB Arizona and FNB Nevada submit a Part 30 plan.
                 Additionally, OCC requests that FNB Arizona, FNB Nevada, and First
                 Heritage Bank establish a minimum capital ratio of 8 percent pursuant to
                 12 CFR Part 3 (individual minimum capital ratio). The banks accept the new
                 minimum capital ratios requirements.
05/05/2008       OCC begins to conduct daily liquidity monitoring at FNB Arizona.
05/07/2008       The individual serving as president, vice chairman, and chief executive
                 officer of FNB Arizona and FNB Nevada and director of First Heritage Bank
                 resigns.
05/08/2008       OCC extends the merger application of FNB Arizona and FNB Nevada. FNB
                 Arizona and FNB Nevada provide OCC with the Part 30 Safety and
                 Soundness Plan, which OCC accepts on May 16, 2008.
05/14/2008       OCC requires FNB Arizona to submit an acceptable capital restoration plan
                 because its PCA capital category is at undercapitalized status. OCC notifies
                 FNB Nevada that its PCA capital category is at adequate capitalized status,
                 which prevents the bank from accepting or renewing brokered deposits
                 without FDIC approval.




             Material Loss Review of First National Bank of Nevada and First Heritage   Page 42
             Bank, National Association (OIG-09-033)
                       Appendix 4
                       Chronology of Significant Events




Date                       Event
05/16/2008                 OCC notifies FNB Arizona and FNB Nevada of its decision, under the Part 3
                           enforcement action, to establish and maintain the minimum capital ratio of
                           8 percent. FNB Arizona and FNB Nevada are to submit plans and to achieve
                           the updated leverage ratios by May 30, 2008. OCC also notifies FNB
                           Arizona and FNB Nevada that the compliance plans the banks submitted
                           under Part 30 have been approved and that they are to immediately
                           implement and adhere to the approved plans.
06/04/2008                 OCC issues a consent order to FNB Arizona, FNB Nevada, and First
                           Heritage Bank, which replaces the Part 30 Safety and Soundness Plan and
                           the individual minimum capital ratio. OCC requires the banks to achieve and
                           maintain a Tier 1 leverage ratio of 8 percent by June 30, 2008.
06/09/2008                 FNB Arizona submits its capital restoration plan.
06/16/2008                 The Board of Governors of the Federal Reserve System enters into a
                           consent order with First National Bank Holding Company that requires the
                           holding company to provide financial strength to its banks.
06/23/2008                 OCC informs FNB Arizona that the bank is significantly undercapitalized.
                           OCC downgrades FNB Arizona’s CAMELS composite rating to a 5 from a 4.
                           OCC also downgrades FNB Nevada’s CAMELS composite rating to a 5 from
                           a 3 and First Heritage Bank’s CAMELS composite rating to a 5 from a 2.
                           OCC transfers supervision of the banks to its Special Supervision Division in
                           Washington, D.C.
06/27/2008                 OCC informs FNB Arizona that its overall capital restoration plan is
                           unacceptable.
06/30/2008                 FNB Arizona merges into FNB Nevada.
07/02/2008                 FNB Nevada’s capital category is at undercapitalized status following the
                           merger.
07/03/2008                 OCC’s terminates FNB Arizona’s consent order because of the merger.
07/25/2008                 OCC closes FNB Nevada and First Heritage Bank and appoints FDIC as
                           receiver.
07/28/2008                 Mutual of Omaha Bank acquires all of the deposits and certain assets of
                           FNB Nevada and the First Heritage Bank and reopens 28 of the banks’
                           offices.
Source: OIG analysis of OCC, FDIC, FNB Arizona, FNB Nevada, and First Heritage Bank data.




                       Material Loss Review of First National Bank of Nevada and First Heritage   Page 43
                       Bank, National Association (OIG-09-033)
                      Appendix 5
                      OCC Examination and Enforcement Actions Concerning First National Bank of
                      Nevada and First Heritage Bank, N.A.


Date                                        Significant safety and soundness corrective
examination   CAMELS          Assets        actions and other issues cited in reports of         Enforcement
started       rating          ($Millions)   examination (ROE)                                    action
FNB Arizona and FNB Nevada
09/20/2004 2/222222        $1,517           Matters requiring the attention of the board         None
             (FNB Arizona)                  of directors
                                            • Evaluation of the corporate governance
              2/222122        $1,068           and organizational structure is needed.
              (FNB Nevada)                     Assessment is to include
                                               o reviewing the adequacy of audit
                                                  committee membership;
                                               o determining the appropriate level for
                                                  corporate processes such as risk
                                                  management, internal audit, internal
                                                  loan review, and compliance
                                                  management (repeat issue);
                                               o ensuring clear expense and profit
                                                  allocation for affiliates and/or related
                                                  organizations;
                                               o establishing and implementing a
                                                  balanced incentive compensation
                                                  program that achieves an appropriate
                                                  balance between production and loan
                                                  quality and loan administration across
                                                  the organization.
                                            Other issue/recommendation
                                            • Policies and internal controls over the use
                                               of appraisers need strengthening to
                                               prevent violations regarding hiring of
                                               appraisers.
                                            • Certain accounting processes need to be
                                               brought into full conformance with
                                               generally accepted accounting principles.
                                            • ALLL methodology needs enhancement.
                                            • Procedures to reduce underwriting
                                               exceptions need development (FNB
                                               Arizona only).
                                            • Significant loan concentrations of
                                               supervisory concern.
                                            • Methodology for maintaining adequate
                                               repurchase reserve in development (FNB
                                               Arizona only).
                                            • Concentration risk limits not established.
                                            • Generalized contingency funding plan
                                               needs enhancement.
09/19/2005    2/222322        $2,145        Matters requiring the attention of the board         None
              (FNB Arizona)                 of directors
                                            • Credit underwriting and administration


                      Material Loss Review of First National Bank of Nevada and First Heritage          Page 44
                      Bank, National Association (OIG-09-033)
                     Appendix 5
                     OCC Examination and Enforcement Actions Concerning First National Bank of
                     Nevada and First Heritage Bank, N.A.


Date                                       Significant safety and soundness corrective
examination   CAMELS         Assets        actions and other issues cited in reports of         Enforcement
started       rating         ($Millions)   examination (ROE)                                    action
              2/222122       $1,325          need improvement. The quickness of loan
              (FNB Nevada)                   production has had priority over quality.
                                             Issues include
                                              o loan appraisal violations (repeat issue)
                                                and
                                              o inadequate practices over standby
                                                letters of credit.
                                           • Accounting issues identified resulted in
                                             the following recommendations:
                                              o Develop and implement comprehensive
                                                accounting policies and procedures
                                                that comply with generally accepted
                                                accounting principles (GAAP) (repeat
                                                issue).
                                              o Document rationale used to determine
                                                that impact of auditor findings or
                                                accounting pronouncements is
                                                immaterial (repeat issue).
                                              o Improve internal controls over financial
                                                reporting (repeat issue). Implement
                                                proper segregation of duties.
                                              o Expand repurchase reserve analysis to
                                                include external factors (repeat issue).
                                              o Implement lower cost or market
                                                accounting for warehouse loans.
                                              o Ensure that impairment and charge-offs
                                                are timely recognized (repeat issue for
                                                ALLL methodology).
                                              o Assess staffing levels in accounting for
                                                adequacy.
                                           • Liquidity risk management practices need
                                             improvement, including
                                              o development of more robust
                                                contingency funding plan (repeat issue)
                                                and
                                              o update of funds management policy.
                                           • Management of interest risk rate needs
                                              improvement:
                                              o Continue to develop, test, and validate
                                                a holistic simulation model (repeat
                                                issue).
                                              o Re-evaluate earnings-at-risk limits by
                                                changing target account, including
                                                basis and yield curve risk.
                                              o Adjust holistic model for core deposit
                                                rate and balance sensitivity.

                     Material Loss Review of First National Bank of Nevada and First Heritage        Page 45
                     Bank, National Association (OIG-09-033)
                   Appendix 5
                   OCC Examination and Enforcement Actions Concerning First National Bank of
                   Nevada and First Heritage Bank, N.A.


Date                                     Significant safety and soundness corrective
examination   CAMELS       Assets        actions and other issues cited in reports of         Enforcement
started       rating       ($Millions)   examination (ROE)                                    action
                                         • FNB Arizona only: Mortgage division
                                           losses totaled about $5.5 million.
                                           Recommended actions for the bank
                                           include the following:
                                            o Benchmark origination costs and
                                               establish expense management
                                               targets.
                                            o Develop and implement procedures and
                                               accountability that are effective in
                                               reducing the high level of underwriting
                                               exceptions (repeat issue).
                                            o Enhance mortgage division's monthly
                                               "risk book."
                                            o Develop contingency strategies to
                                               restructure or exit the business if a
                                               return to profitability was not
                                               successful.
                                         Other issues/recommendations
                                         • Violation of 12 CFR § 34.43(a)—appraisal
                                            required prior to loan approval.
                                         • Violation of 12 CFR § 34.45(b)(2)—need
                                            for appraisal independence (repeat issue).
                                         • Violation of 12 CFR § 22.9(c)—
                                            notification of borrower before completion
                                            of transaction about flood hazard before
                                            completing the transaction (FNB Nevada
                                            only).
                                         • Succession planning process in need of
                                            completion.
                                         • Viability of mortgage division business
                                            model in doubt (FNB Arizona only).
                                         • Repurchase rate estimates for relatively
                                            new products not well established (FNB
                                            Arizona only).
                                         • Quality of loan production in need of
                                            significant improvement due to employee
                                            or vendor error and need to improve
                                            accountability (FNB Arizona only).
                                         • Internal control and reconciliation issues
                                            disclosed by internal audit reviews and
                                            external audits (FNB Arizona only).
                                         • Significant loan concentrations (repeat
                                            issue).
                                         • Loan portfolio diversification parameters
                                            (concentration risk limits) not established


                   Material Loss Review of First National Bank of Nevada and First Heritage        Page 46
                   Bank, National Association (OIG-09-033)
                      Appendix 5
                      OCC Examination and Enforcement Actions Concerning First National Bank of
                      Nevada and First Heritage Bank, N.A.


Date                                        Significant safety and soundness corrective
examination   CAMELS          Assets        actions and other issues cited in reports of         Enforcement
started       rating          ($Millions)   examination (ROE)                                    action
                                               (repeat issue).
09/11/2006    2/212222        $2,325        Matters requiring the attention of the board         None
              (FNB Arizona)                 of directors
                                            • Effective procedures and processes to
              2/212122        $1,511          reduce the level and number of
              (FNB Nevada)                    underwriting exceptions have not been
                                              implemented (FNB Arizona only, repeat
                                              issue).
                                            • Documentation supporting compliance
                                              with underwriting processes for reduced
                                              documentation loans is inadequate—need
                                              to demonstrate repayment capacity (FNB
                                              Arizona only).
                                            • Comprehensive accounting policies in
                                              compliance with GAAP have not been
                                              developed (repeat issue).
                                            • Repurchase reserve analyses are
                                              inadequate (FNB Arizona only, repeat
                                              issue).
                                            • Documentation to meet GAAP hedge fund
                                              accounting requirements have not been
                                              developed (FNB Arizona only).
                                            • Contingency funding plan is not fully
                                              developed (repeat issue).
                                            Other issues/recommendations
                                            • Violation 12 CFR § 22.3(a)—Modified
                                              flood insurance policy requirements have
                                              not been properly implemented.
                                            • Succession planning process needs to be
                                              completed (repeat issue).
                                            • Appraisal review checklists for mortgage
                                              loans are often missing or incomplete.
                                              (FNB Arizona only)
                                            • Outsourced servicing of loans needs
                                              quality control reviews and audits. (FNB
                                              Arizona only)
                                            • Policies and procedures over outsourcing
                                              of servicing need to be formalized. (FNB
                                              Arizona only)
                                            • Allowance for loan and lease losses
                                              (ALLL) methodology need enhancement
                                              (repeat issue).
                                            • Procedures for tracking due dates for
                                              receipt of borrower annual financial
                                              statements are inadequate.


                      Material Loss Review of First National Bank of Nevada and First Heritage          Page 47
                      Bank, National Association (OIG-09-033)
                      Appendix 5
                      OCC Examination and Enforcement Actions Concerning First National Bank of
                      Nevada and First Heritage Bank, N.A.


Date                                        Significant safety and soundness corrective
examination   CAMELS          Assets        actions and other issues cited in reports of         Enforcement
started       rating          ($Millions)   examination (ROE)                                    action
                                            • Commercial real estate and large
                                               relationship concentrations are of
                                               supervisory concern (repeat issue).
                                            • Concentration risk limits not established
                                               (repeat issue).
10/15/2007    4/444532        $2,940        The banks’ conditions have deteriorated and          Part 30
              (FNB Arizona)                 are a supervisory concern. OCC initiates an          Safety and
                                            informal enforcement action because of the           Soundness
              3/333232        $1,433        significance of the problems and the                 Plan
              (FNB Nevada)                  poor/fair financial condition of the banks.          requirement
                                                                                                 issued
                                            Matters requiring the attention of the board         04/08/2008
                                            of directors                                         (Informal
                                            • The banks lack a current comprehensive             Action)
                                               capital plan. Such a plan should address,
                                               at a minimum, the following:                      Individual
                                               o capital structure;                              minimum
                                               o growth plans;                                   capital ratio
                                               o dividend plans;                                 requirement
                                               o quality and strength of earnings, and           implemented
                                                  capital support from earnings retention;       05/16/08
                                               o quality and depth of management;                (informal
                                               o quality of asset-liability management;          action)
                                               o asset quality;
                                               o risk concentrations, such as
                                                  concentrations of credit (repeat
                                                  issues);
                                               o overall risk profile for each risk
                                                  assessment factor;
                                               o maintaining adequate loss reserves;
                                               o strategic plans regarding new products
                                                  and services;
                                               o adequacy of operating procedures
                                                  (repeat issues); and
                                               o adequacy of internal controls (repeat
                                                  issues).
                                            • Senior management and loan officers are
                                              not identifying problem assets in a timely
                                              manner. This is causing criticized and
                                              classified assets to be understated, and
                                              efforts to mitigate risk may be delayed.
                                            • The internal loan review function lacks
                                              independence due to executive
                                              management influences that affect the
                                              final ratings assigned to credits.


                      Material Loss Review of First National Bank of Nevada and First Heritage         Page 48
                      Bank, National Association (OIG-09-033)
                   Appendix 5
                   OCC Examination and Enforcement Actions Concerning First National Bank of
                   Nevada and First Heritage Bank, N.A.


Date                                     Significant safety and soundness corrective
examination   CAMELS       Assets        actions and other issues cited in reports of         Enforcement
started       rating       ($Millions)   examination (ROE)                                    action
                                         • Internal loan review is understaffed.
                                         • Credit analysis for real estate development
                                           lacks global monitoring of the entire
                                           borrowing relationship, including all of the
                                           borrower’s projects and indebtedness.
                                           Borrowers are generally monitored on an
                                           individual project basis. Guarantor
                                           financial analysis also is incomplete.
                                         • Credit file documentation does not
                                           indicate adequate monitoring of loan
                                           covenants or project performance on
                                           acquisition and development and
                                           construction loans.
                                         • Concentration risk limits have not been
                                           established (repeat issue).
                                         • The bank’s ALLL methodology does not
                                           completely conform to regulatory
                                           guidelines as outlined by OCC guidance
                                           (repeat issue).
                                         • Management does not have a process to
                                           consistently recognize loss and record
                                           charge-offs in a timely manner and in
                                           accordance with accounting principles.
                                         • The residential mortgage loan repurchase
                                           reserve analysis does not fully conform to
                                           the requirements of Statements of
                                           Financial Accounting Standards Nos. 5
                                           and 140 (FNB Arizona only, repeat issue).
                                         • The board and management have not
                                           ensured that accounting policies, staffing
                                           levels, and expertise are commensurate
                                           with the complexities of bank operations
                                           (repeat issue).
                                         • A subsidiary is incorrectly consolidated on
                                           the books of FNB Arizona.
                                         • The board and management continue to
                                           rely on purchased funds for managing
                                           liquidity. Funds management practices
                                           have not changed to reflect the bank’s
                                           poor condition and increased risk profile.
                                         Other issues
                                         • Board and management supervision and
                                           risk management practices have been
                                           inadequate for the scope of operations.
                                           Board composition needs to be enhanced


                   Material Loss Review of First National Bank of Nevada and First Heritage        Page 49
                   Bank, National Association (OIG-09-033)
                      Appendix 5
                      OCC Examination and Enforcement Actions Concerning First National Bank of
                      Nevada and First Heritage Bank, N.A.


Date                                        Significant safety and soundness corrective
examination   CAMELS          Assets        actions and other issues cited in reports of         Enforcement
started       rating          ($Millions)   examination (ROE)                                    action
                                              with additional outside directors to allow
                                              for greater independence and improved
                                              corporate governance. Concerns exist
                                              about board and management ability to
                                              restore the bank to a sound condition.
                                            • Procedures to reduce underwriting
                                              exceptions need improvements (FNB
                                              Arizona only—repeat issue).
                                            • Significant loan concentrations (repeat
                                              issue).
                                            • Contingency funding plan is not fully
                                              developed (repeat issue).
05/12/2008    5/555553        $2,836        OCC initiates a formal enforcement action            Consent
              (FNB Arizona)                 because the banks have failed to achieve the         order issued
                                            required individual minimum capital ratio.           on
                                                                                                 06/04/2008
05/08/2008    5/555553        $1,634        Matters requiring the attention of the board         (formal
              (FNB Nevada)                  of directors                                         action)
                                            • No matters are identified. OCC issues a
                                              letter to downgrade the institution’s
                                              CAMELS composite rating to a 5.
                                            Other issues
                                            • The bank is in critical condition,
                                              experiencing substantial and ongoing
                                              deterioration that is negatively affecting
                                              earnings, capital, and liquidity with a high
                                              probability of failure.
                                            • The bank is engaged in statutorily unsafe
                                              and unsound practices.
                                            • The board and management are critically
                                              deficient because of their implementation
                                              of business strategies that allowed
                                              significant concentrations in high-risk
                                              commercial real estate and residential
                                              lending without adequate risk
                                              management and appropriate accounting
                                              policies and procedures.
                                            • With the selling of federal funds to FNB
                                              Arizona, despite its deteriorating
                                              condition, management has threatened
                                              the viability of FNB Nevada. (FNB Nevada
                                              only)
                                            • Bank management was slow to adjust to
                                              safety and soundness concerns and
                                              deterioration in investor and real estate


                      Material Loss Review of First National Bank of Nevada and First Heritage        Page 50
                      Bank, National Association (OIG-09-033)
                   Appendix 5
                   OCC Examination and Enforcement Actions Concerning First National Bank of
                   Nevada and First Heritage Bank, N.A.


Date                                     Significant safety and soundness corrective
examination   CAMELS       Assets        actions and other issues cited in reports of         Enforcement
started       rating       ($Millions)   examination (ROE)                                    action
                                             markets.
                                         •   The ability of the management team to
                                             address deficiencies is unknown.
                                         •   Management was unsuccessful in adding
                                             external members to the board of
                                             directors to address corporate governance
                                             concerns.
                                         •   Asset quality is critically deficient, with
                                             significant increases in classified and
                                             special mention assets.
                                         •   Loan losses, problem loans, and non-
                                             performing asset volumes have
                                             significantly increased.
                                         •   The board of directors has failed to
                                             o correct weak underwriting practices
                                                 within the CRE portfolio and high-risk
                                                 mortgage loans;
                                             o stop unfavorable changes in sales
                                                 agreements; and
                                             o was slow to react to changes in CRE
                                                 markets and residential mortgage
                                                 investor markets.
                                         •   The banks’ capital is critically deficient
                                             and undercapitalized at levels that
                                             threaten the viability of the institutions.
                                         •   The banks’ liquidity levels are critically
                                             deficient, threatening the viability of the
                                             institutions.
                                         •   Wholesale external funding resources
                                             have been reduced or are no longer
                                             available.
                                         •   The banks can no longer issue or renew
                                             brokered deposits.
                                         •   The stability of homeowners association
                                             account deposits is unclear due to the
                                             issuance of a public enforcement action
                                             by OCC.
                                         •   Earnings are critically deficient, with large
                                             losses contributing to the erosion of
                                             capital.
                                         •   Management budgeting and forecasting
                                             processes are weak and have not
                                             demonstrated the ability to accurately
                                             forecast realistic earnings.
                                         •   Management’s ability to reliably measure


                   Material Loss Review of First National Bank of Nevada and First Heritage        Page 51
                   Bank, National Association (OIG-09-033)
                    Appendix 5
                    OCC Examination and Enforcement Actions Concerning First National Bank of
                    Nevada and First Heritage Bank, N.A.


Date                                      Significant safety and soundness corrective
examination   CAMELS        Assets        actions and other issues cited in reports of         Enforcement
started       rating        ($Millions)   examination (ROE)                                    action
                                            interest rate risk is questionable.
                                          • Level of earnings and capital do not
                                            provide adequate support for the amount
                                            of market risk inherent in the company.
First Heritage Bank
01/23/2006 2/112322         $129          Matters requiring the attention of the board         None
                                          of directors
                                          • No matters are identified.
                                          Other issues/recommendations
                                          • Loan participation certificates should be
                                             accurate and complete and loans should
                                             be booked according to terms.
                                          • The bank’s earnings need improvement.
                                          • Listing of high-risk customers was not
                                             complete or accurate.
                                          • Customer service representatives did not
                                             have sufficient access to customer due
                                             diligence policies.
                                          • Management should document review of
                                             reports on liquidity and interest rate risk.
                                          • Comprehensive accounting policies and
                                             procedures that comply with generally
                                             accepted accounting principles (GAAP)
                                             not developed. (Issue noted for affiliate
                                             banks and in First Heritage Bank’s 2006
                                             ROE).
                                          • Contingency funding plan is not fully
                                             developed (repeat issue). (Issue noted for
                                             affiliate banks and in First Heritage Bank’s
                                             2006 ROE).
                                          • Concentration risk limits not established
                                             (Issue noted for affiliate banks and in First
                                             Heritage Bank’s 2006 ROE).
10/02/2006    2/212322      $226          Matters requiring the attention of the board         None
                                          of directors
                                          • Comprehensive accounting policies in
                                             compliance with GAAP have not been
                                             fully developed.
                                          • Contingency funding plan has not been
                                             fully developed (repeat issue).
                                          Other issues/recommendations
                                          • Violation of 12 CFR § 22.3(a) - Modified
                                             flood insurance policy requirements have
                                             not been properly implemented.
                                          • Capital ratios and net interest margin are


                    Material Loss Review of First National Bank of Nevada and First Heritage          Page 52
                    Bank, National Association (OIG-09-033)
                    Appendix 5
                    OCC Examination and Enforcement Actions Concerning First National Bank of
                    Nevada and First Heritage Bank, N.A.


Date                                      Significant safety and soundness corrective
examination   CAMELS        Assets        actions and other issues cited in reports of         Enforcement
started       rating        ($Millions)   examination (ROE)                                    action
                                             well below levels for peer institutions due
                                             to negative earnings.
                                          • Succession planning process is not
                                             complete.
                                          • Progress made on credit risk and
                                             concentration project (concentration risk
                                             limits still not established—repeat issue).
10/15/2007    2/222322      $232          Matters requiring the attention of the board
                                          of directors
                                          • Credit analysis for real estate
                                             development is weak, monitoring of
                                             borrowing relationships is lacking, and
                                             financial analysis of guarantors is
                                             incomplete.
                                          • Monitoring of loan covenants and project
                                             performance for development and
                                             construction loans is inadequate.
                                          • Concentration risk limits have not been
                                             established (repeat issue).
                                          • ALLL methodology does not conform to
                                             regulatory guidelines.
                                          • Funds management practices have not
                                             yet changed to reflect the bank’s poor
                                             condition and increased risk.
                                          Other issues/recommendations
                                          • Significant credit administration
                                             weaknesses and deterioration in loan
                                             portfolios at affiliates could affect First
                                             Heritage Bank’s viability.
                                          • Earnings have improved but remain less
                                             than satisfactory.
                                          • The board and management have not
                                             ensured that accounting policies, staffing
                                             levels, and expertise are commensurate
                                             with the complexities of bank operations
                                             (repeat issue from prior ROEs and in
                                             affiliate ROEs for 2007).
                                          • Contingency funding plan in need of
                                             enhancement (repeat issue-centralized
                                             issue noted for affiliate banks for 2007
                                             and prior First Heritage Bank’s ROE).




                    Material Loss Review of First National Bank of Nevada and First Heritage        Page 53
                    Bank, National Association (OIG-09-033)
                        Appendix 5
                        OCC Examination and Enforcement Actions Concerning First National Bank of
                        Nevada and First Heritage Bank, N.A.


Date                                           Significant safety and soundness corrective
examination    CAMELS            Assets        actions and other issues cited in reports of        Enforcement
started        rating            ($Millions)   examination (ROE)                                   action
05/12/2008     5/553553          $159          OCC initiates a formal enforcement action           Consent
                                               because of First Heritage Bank’s sale of a          order issued
                                               significant volume of federal funds to its          on
                                               affiliated banks.                                   06/04/2008
                                                                                                   (formal
                                               Matters requiring the attention of the board        action)
                                               of directors
                                               • No matters are identified. OCC issues a
                                                  letter to downgrade the institution’s
                                                  CAMELS composite rating to 5.
                                               Other issues/recommendations
                                               • The bank is considered to be in critical
                                                  condition, experiencing substantial and
                                                  ongoing deterioration due to conditions at
                                                  affiliate banks FNB Arizona and FNB
                                                  Nevada.
                                               • The bank is experiencing deterioration in
                                                  its credit portfolio, affecting earnings,
                                                  capital, and liquidity.
                                               • Asset quality has significantly deteriorated
                                                  due to the daily sale of federal funds, up
                                                  to four times its capital, to affiliate FNB
                                                  Arizona.
                                               • Classified and special mention assets have
                                                  increased significantly.
                                               • Earnings are critically deficient due to
                                                  unsafe and unsound practices.
                                               • Budget and forecasting processes are
                                                  weak.
                                               • Management’s ability to measure interest
                                                  risk rate is questionable.
Source: OIG analysis of OCC Reports of Examination.




                        Material Loss Review of First National Bank of Nevada and First Heritage        Page 54
                        Bank, National Association (OIG-09-033)
Appendix 6
Management Comments




Material Loss Review of First National Bank of Nevada and First Heritage   Page 55
Bank, National Association (OIG-09-033)
Appendix 6
Management Comments




Material Loss Review of First National Bank of Nevada and First Heritage   Page 56
Bank, National Association (OIG-09-033)
Appendix 7
Major Contributors To This Report




Boston Audit Office

Mark Ossinger, Audit Manager
Kenneth Dion, Audit Manager
Jenny Hu, Auditor-in-Charge
Kenneth O’Loughlin, Auditor
Alex Taubinger, Auditor

Washington, DC

Asha Mede, Referencer




Material Loss Review of First National Bank of Nevada and First Heritage   Page 57
Bank, National Association (OIG-09-033)
Appendix 8
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Office of the Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman

Comptroller General of the United States

    Acting Comptroller General




Material Loss Review of First National Bank of Nevada and First Heritage   Page 58
Bank, National Association (OIG-09-033)
